No. 21-107

In the Supreme Court of the United States
__________________
EDWARD THOMAS KENDRICK, III,
Petitioner,
v.
MIKE PARRIS, WARDEN,
Respondent.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Sixth Circuit
__________________
RESPONDENT’S BRIEF IN OPPOSITION TO
PETITION FOR WRIT OF CERTIORARI

__________________
HERBERT H. SLATERY III
Attorney General and Reporter
State of Tennessee
ANDRÉE SOPHIA BLUMSTEIN
Solicitor General
JOHN H. BLEDSOE
Counsel of Record
Deputy Attorney General
Federal Habeas Corpus Division
500 Dr. Martin L. King Jr. Blvd.
P.O. Box 20207
Nashville, Tennessee 37202-0207
John.Bledsoe@ag.tn.gov
(615) 741-4351
October 8, 2021

Counsel for Respondent

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED FOR REVIEW
I
On the habeas corpus petitioner’s allegations of
ineffective assistance of trial counsel involving
counsel’s decisions not to investigate or retain a
firearms expert or to seek admission of a law
enforcement officer’s prior statements as excited
utterances, did the Tennessee Supreme Court
reasonably apply clearly established federal law when
rejecting the claims, as both the district court and the
Sixth Circuit concluded?
II
Can the petitioner overcome the procedural default
of other federal claims due to his alleged actual
innocence?

ii
TABLE OF CONTENTS
QUESTIONS PRESENTED FOR REVIEW . . . . . . . i
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . iv
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 1
I.

Trial Evidence . . . . . . . . . . . . . . . . . . . . . . . . . 1

II.

Direct Appeal . . . . . . . . . . . . . . . . . . . . . . . . . . 5

III.

Post-Conviction Trial Proceedings . . . . . . . . . 5

IV.

Post-Conviction Appeal . . . . . . . . . . . . . . . . . . 8

V.

Federal Habeas Corpus Review . . . . . . . . . . 10

ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
I. Further Review Is Unwarranted Because the
Sixth Circuit Rightly Determined That the
Tennessee Supreme Court Did Not
Unreasonably Apply Federal Law in Rejecting
the Petitioner's Allegations of Ineffective
Assistance of Counsel . . . . . . . . . . . . . . . . . . . . . 13
A. The Tennessee Supreme Court did not
unreasonably apply federal law when
rejecting the ineffectiveness claims, as
persuasively explained by the Sixth Circuit 13
B. The Tennessee Supreme Court did not
unreasonably determine the facts when it
concluded that an expert useful to the
defense was not available at the time of the
petitioner's trial . . . . . . . . . . . . . . . . . . . . . . . 17

iii
C. The petitioner's new assertion of presumed,
per se deficient performance does not merit
consideration . . . . . . . . . . . . . . . . . . . . . . . . . 19
D. The petitioner can show no unreasonable
application of Strickland in the state-court
rejection of his claim of cumulative
ineffectiveness . . . . . . . . . . . . . . . . . . . . . . . . 22
II. The petitioner cannot overcome procedural
default of his other claims due to his alleged
actual innocence . . . . . . . . . . . . . . . . . . . . . . . . . 23
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

iv
TABLE OF CITED AUTHORITIES
CASES
Bousley v. United States,
523 U.S. 614 (1998). . . . . . . . . . . . . . . . . . . . . . . 23
Brumfield v. Cain,
576 U.S. 305 (2015). . . . . . . . . . . . . . . . . . . . . . . 19
Burt v. Titlow,
571 U.S. 12 (2013). . . . . . . . . . . . . . . . . . . . . . . . 18
Cullen v. Pinholster,
563 U.S. 170 (2011). . . . . . . . . . . . . . . . . . . . . . . 13
Dretke v. Haley,
541 U.S. 386 (2004). . . . . . . . . . . . . . . . . . . . . . . 23
Greene v. Fisher,
565 U.S. 34 (2011). . . . . . . . . . . . . . . . . . . . . . . . 21
Harrington v. Richter,
562 U.S. 86 (2011). . . . . . . . . . . . . . . 13, 14, 16, 17
Hinton v. Alabama,
571 U.S. 263 (2014). . . . . . . . . . . 15, 19, 20, 21, 22
House v. Bell,
547 U.S. 518 (2006). . . . . . . . . . . . . . . . . . . . . . . 24
Kendrick v. Parris,
989 F.3d 459 (6th Cir. 2021). . . . . . . . . . . . passim
Kendricks v. Phillips,
2019 WL 4757813
(E.D. Tenn. Sep. 30, 2019) . . . . . . . . . . . 10, 11, 24

v
Kendricks v. State,
13 S.W.3d 401 (Tenn. Crim. App. 1999) . . passim
Kendrick v. State,
E2011-02367-CCA-R3-PC, 2013 WL 3306655
(Tenn. Crim. App. Jun. 27, 2013) . . . . . . . . . . . . . 9
Kendrick v. State,
E2011-02367-CCA-R3-PC, 2015 WL 6755004
(Tenn. Crim. App. Nov. 5, 2015). . . . . . . . . . 10, 22
Kendrick v. Tennessee,
136 S. Ct. 335 (2015). . . . . . . . . . . . . . . . . . . . . . . 9
Kimmelman v. Morrison,
477 U.S. 365 (1986). . . . . . . . . . . . . . 19, 20, 21, 22
Knowles v. Mirzayance,
556 U.S. 111 (2009). . . . . . . . . . . . . . . . . . . . 13, 14
Murray v. Carrier,
477 U.S. 478 (1986). . . . . . . . . . . . . . . . . . . . . . . 23
Rice v. Collins,
546 U.S. 333 (2006). . . . . . . . . . . . . . . . . . . . . . . 19
Sawyer v. Whitley,
505 U.S. 333 (1992). . . . . . . . . . . . . . . . . . . . . . . 24
Schlup v. Delo,
513 U.S. 298 (1995). . . . . . . . . . . . . . . . . 23, 24, 26
State v. Kendricks,
947 S.W.2d 875 (Tenn. Crim. App. 1996) . . . . . . 5
Strickland v. Washington,
466 U.S. 668 (1984). . . . . . . . . . . . . . . . . . . passim

vi
United States v. Williams,
504 U.S. 36 (1992). . . . . . . . . . . . . . . . . . . . . . . . 20
Yarborough v. Alvarado,
541 U.S. 652 (2004). . . . . . . . . . . . . . . . . . . . . . . 14
STATUTES
28 U.S.C. § 2254(d). . . . . . . . . . . . . . . . . . . . . . . 12, 22
28 U.S.C. § 2254(d)(1) . . . . . . . . . . . . . . . . . . . . . . . 13
28 U.S.C. § 2254(d)(2) . . . . . . . . . . . . . . . . . . . . . . . 18
28 U.S.C. § 2254(e)(1) . . . . . . . . . . . . . . . . . . . . . . . 19
OTHER AUTHORITIES
Tenn. R. Evid. 613(b) . . . . . . . . . . . . . . . . . . . . . . . 4, 5
Tenn. R. Evid. 803(2) . . . . . . . . . . . . . . . . . 8, 9, 16, 17

1
STATEMENT OF THE CASE
The Hamilton County Grand jury indicted the
petitioner, Edward Kendrick, for the March 1994 firstdegree premediated murder of his wife, Lisa Kendrick.
The case proceeded to a jury trial in November 1994, at
which time the jury convicted the petitioner as charged
and the trial court imposed a sentence of life
imprisonment. As noted in the petition for writ of
certiorari, the petitioner has been on parole since 2020.
(Pet. 9, n. 4.)
I.

Trial Evidence

Around 10:00 p.m. on March 6, 1994, the petitioner
drove to the BP gas station on Lee Highway in
Chattanooga, Tennessee, where his wife, Lisa
Kendrick, worked. Kendrick v. Parris, 989 F.3d 459,
462 (6th Cir. 2021). Their four-year-old daughter and
three-year-old son were also in the car. According to
Lennell Shepheard, the victim’s friend who was inside
the store that night, the petitioner walked into the
store and asked the victim to step outside and talk.
She completed her transactions and walked outside,
and to Shepheard, it appeared that the two argued.
Shortly thereafter, Shepheard heard a “boom,” and
when he opened the door and looked outside, he saw
the victim lying on the ground and the petitioner
standing over her. Likewise, Charles Mowrer, who
lived across the street, heard the same sound, ran
outside, and saw the petitioner looking over the victim.
A departing store patron, Timothy Benton, heard the
sound, and when he looked back, he saw the petitioner
pointing a rifle “straight up in the air,” with his right

2
hand “on the pistol grip area around the trigger and his
left hand . . . up near the stock.” Id.
According to Shepheard, the petitioner stated “I told
you so” about six times while looking at the victim on
the ground. The petitioner turned, made eye-contact
with Shepheard, and reached at least three times for
the car door without opening it. Ultimately, the
petitioner ran around the car, jumped in it, and fled
toward the nearby airport. Benton followed him while
Shepheard called 911. Once at the airport, the
petitioner made his own 911 call and stated that he
had just shot his wife. After the petitioner was placed
into a patrol car, he said, “I hope this is only a dream.”
He made no suggestion that the shooting was
accidental. Id. at 462-63.
An officer at the airport approached the petitioner’s
and the victim’s four-year-old daughter, Endia
Kendrick, who “was very upset, was crying, [and]
seemed to be very scared.” Another officer testified that
Endia—who was “hysterical”—stated that “she had told
daddy not to shoot mommy but he did and she fell.”
Endia testified at trial that she saw the petitioner
shoot the victim and that the victim’s hands were up,
although she acknowledged that she previously told
defense counsel that she did not see the shooting. Id.
This testimony matched the forensic evidence of
stippling on the victim’s forearms. Id. The medical
examiner found stipple injury only on the backs of the
victim’s forearms. (R.E. 14-5, PageID# 815, 818.) He
opined that, for stippling to occur on the backs of the
forearms and not on the hands, upper arms, or chest,
the forearms had to be up and facing the barrel of the

3
gun, with the hands bent back. (R.E. 14-5, PageID#
819.) “In addition, her forearm[s] would have to be
drawn in on either side of where the projectile came
into the body.” (R.E. 14-5, PageID# 819.)
Officer Steve Miller, an identification officer for the
Chattanooga Police Department, collected a Remington
7400 rifle from the side of the airport road, which he
placed in his trunk and transported to the police
station. Kendrick, 989 F.3d at 463. Around 1:45 a.m., in
the police station parking lot, Miller gathered evidence
to take inside. As the rifle was pointed downward, it
discharged and struck Miller in the left foot. Id.
At trial, Miller testified that he had no recollection
of the position of his hand when the rifle discharged
even though police incident reports recorded Miller as
having said that the rifle fired without Miller touching
the trigger. Defense counsel pursued vigorous crossexamination to challenge this lack of memory:
Miller admitted that he had been a police officer
for twenty-two years, that he had never
accidentally discharged a firearm, and that it is
“drilled into you at the police academy don’t ever
put your hand on the trigger unless you’re going
to shoot the gun.” He also confirmed that he
would “[n]ever” otherwise “knowingly” place his
finger on the trigger of a loaded gun. And Miller
conceded that he “presumed [the gun] was
loaded” at the time. Counsel next pointed out
that when Miller reenacted the incident for the
jury, he hadn’t “put [his] finger on the trigger.”
Miller insisted that he could not “say for sure in
th[e] courtroom how [his] hand was that night,”

4
but counsel wouldn’t let Miller off the hook so
easily. Eventually, counsel’s questioning caused
Miller to admit that his reenactment for the
jury—finger “not on the trigger”—was “to the
best of [his] recollection how it happened[.]”
Id. After recalling Miller later in the trial, defense
counsel questioned him about his prior statements, and
after reviewing certain reports, Miller expressed no
memory of those statements. The trial court declined
defense counsel’s attempts to admit the reports as
impeaching prior inconsistent statements under Tenn.
R. Evid. 613(b). Id. at 464.
Kelly Fite, the State’s firearms expert, testified that
he conducted a “drop test” on the rifle and examined it
extensively to determine whether it would fire
accidently without the trigger being pulled. From his
testing, the only way that Fite could make this rifle
discharge was by pulling the trigger. Consequently, he
opined that the only way to fire this rifle without
breaking it “is by pulling the trigger.” Id. at 463-64.
The petitioner testified that he did not intentionally
kill his wife and would not have done so. When he
talked with her at the BP station, they were not
arguing or having any problems. He explained that he
carried the loaded rifle only for protection, as they both
cleaned houses in an unsafe area. According to the
petitioner, the victim told him to move the rifle from
the front seat to the trunk. When he retrieved his keys
from his pocket and moved the rifle to his right hand,
it “went off” without him pulling the trigger. He fled
after the shooting so as to remove his children from the

5
scene. He threw the weapon out of the car window
because he was “scared.” Id. at 464.
II.

Direct Appeal

On direct appeal, the Tennessee Court of Criminal
Appeals affirmed the petitioner’s conviction. State v.
Kendricks, 947 S.W.2d 875 (Tenn. Crim. App. 1996). In
so doing, the court concluded that the trial court erred
by excluding extrinsic evidence on Miller’s prior
inconsistent statements that his finger was not near
the rifle’s trigger when it discharged. But any error
under Tenn. R. Evid. 613(b) was harmless because
defense counsel’s “thorough” cross-examination of
Miller “provided the jury ample evidence from which it
could have concluded that [his] memory was faulty and
that he knew he had not caused the gun to fire by
pulling the trigger.” Id. at 881-82.
III.

Post-Conviction Trial Proceedings

After the Tennessee Supreme Court denied
discretionary review in the direct appeal of his
conviction, the petitioner pursued post-conviction relief
in state court, which the trial court denied. On appeal,
the Tennessee Court of Criminal Appeals reversed and
remanded for the appointment of counsel and for
further proceedings on claims not waived or previously
determined. Kendricks v. State, 13 S.W.3d 401 (Tenn.
Crim. App. 1999).
At the evidentiary hearing conducted on remand,
Miller testified again about the events surrounding his
own shooting while unloading the rifle from his vehicle.
Kendrick, 989 F.3d at 464. He could not recall where
his fingers were when the gun discharged, nor could he

6
“say with a hundred percent accuracy” that they were
not near the trigger. But, consistent with his training,
his fingers “shouldn’t have been” near the trigger.
Officer Michael Holbrook, who prepared the initial
report on Miller’s injury, testified that during a visit
with Miller at the hospital, Miller said that his finger
was not around the trigger when the rifle fired. Officer
Glen Sims identified a supplemental incident report
that recorded Miller telling Officer James Gann that
the rifle “just went off.” Officer Gann, the first officer
responding to the incident and assisting Miller,
explained that Miller was in a lot of pain, was bleeding,
and was starting to go into shock. When Gann was
shown Sims’s report about Miller’s statement, the
report did not refresh Gann’s memory about what
Miller said to him about the shooting. Id. at 465.
Jack Belk, a firearms expert who testified for the
petitioner, explained that this Remington Model 7400
rifle had “a common trigger mechanism” and that
generally “all pumps and automatics manufactured
after 1948 by Remington” contain this trigger
mechanism. According to Belk, Remington firearms
with this trigger mechanism have “a history of firing
under outside influences other than a manual pull of
the trigger.” A build-up of debris in the trigger
mechanism can cause an “insecure engagement
between the hammer and the sear itself,” meaning that
the gun can fire without pulling the trigger and with
the safety engaged. Id.
Belk first identified a problem with the common
trigger mechanism on a Remington firearm in the
1970s. His first case with the common trigger

7
mechanism was in 1994, involving a Remington 700
rifle. However, he did not handle a case involving a
Remington 7400 rifle until 1997 or 1998. He opined
that someone could have potentially found and retained
him in 1994. Id.
Prior to his hearing testimony, Belk looked at the
rifle, and from his visual inspection, the rifle showed
the normal dirty condition of a gun that had not been
cleaned. He could not manipulate the gun to fire
without pulling the trigger. Id. He could not opine that
this gun had misfired because he did not “have that
information,” and the gun “hasn’t done that with
[him].” (R.E. 14-30, PageID# 3147.) He acknowledged
that he had never reproduced an inadvertent fire from
debris in an operational Remington 7400 rifle. (R.E. 1430, PageID# 3158-60.) Nevertheless, he opined that the
rifle “is capable of firing without a pull of the trigger,
whether the safety is on or off.” Kendrick, 989 F.3d at
465.
Trial counsel, Hank Hill, testified that, once he
learned that Miller said his hand was not near the
trigger during his own shooting, he believed that this
“ought to prove our case.” Hill knew Miller not to be a
dishonest person, and he believed that Miller would
testify consistently with his prior statements that his
finger was not on the trigger. Hill thought that the
defense “could use that very effectively.” Id. at 465-66.
Once Miller testified to not recalling where his hand
was on the rifle when it discharged, Hill felt
“sandbagged.” He sought to admit Miller’s prior
statements as inconsistent statements. He
acknowledged that he could have, but did not, seek

8
their admission under Tenn. R. Evid. 803(2), the
excited-utterance exception to the hearsay rule. He
knew the difference between the two, but “[i]n the heat
of the trial, [he] didn’t see that.” Id. at 466.
Regarding firearm expert testimony, members of
the defense team talked to Fite and reviewed his report
prior to trial. In view of Fite’s expected expert
testimony, Hill believed that Miller’s shooting
“trump[ed] anything Kelly Fite can say.” “Mr. Miller
shooting himself in the foot accidentally, without his
hands near the trigger, was enough for a reasonable
doubt as to anything.” Id.
Hill—who had a “fundamental knowledge of
firearms”—did not look for an expert witness to testify
for the defense regarding the gun’s discharging, and he
could not recall if he consulted with a gunsmith whom
he routinely used. When asked if he believed expert
testimony from a witness who examined the trigger
mechanism would have been beneficial, he said that he
did, “especially with the knowledge now that there
have been so many problems with the Remington
trigger mechanism.” But at that time, Hill did not
recognize the significance because he knew of no
“discussion in the industry about the trigger
mechanism on the Remington being potentially able to
malfunction.” “[Y]ou couldn’t Google Remington trigger
mechanisms back then.” Id.
IV.

Post-Conviction Appeal

Upon consideration of the proof presented, the trial
court denied the post-conviction petition, but on appeal,
the Tennessee Court of Criminal Appeals reversed and

9
remanded for a new trial, concluding that trial counsel
rendered ineffective assistance of counsel by failing (1)
to secure expert opinion testimony on faulty trigger
mechanisms in Remington 7400 rifles, and (2) to seek
the admission of Miller’s pretrial statements—that his
finger was not on or near the rifle’s trigger when it
discharged—as excited utterances under Tenn. R. Evid.
803(2). Kendrick v. State, E2011-02367-CCA-R3-PC,
2013 WL 3306655, at *13-18 (Tenn. Crim. App. Jun. 27,
2013). The court declined to address the remaining
issues raised by the petitioner. Id. at *18.
Upon further review, the Tennessee Supreme Court
reversed and reinstated the petitioner’s conviction.
Kendrick v. State, 454 S.W.3d 450 (Tenn. 2015), On the
expert-witness issue, the court found no deficient
performance because counsel was not compelled to seek
the appointment of a defense expert. Id. at 468-77. On
the evidentiary issue, in view of counsel’s other efforts
to convey to the jury that Miller’s fingers were not near
the trigger when the rifle discharged, the court found
neither deficient performance nor prejudice in counsel’s
failure to seek admission of Miller’s statements under
the excited-utterance exception to the hearsay rule. Id.
at 477-81. The Tennessee Supreme Court remanded for
the Tennessee Court of Criminal Appeals to consider
the petitioner’s remaining claims, id. at 481, and this
Court denied certiorari, Kendrick v. Tennessee, 136 S.
Ct. 335 (2015).
On remand, the Tennessee Court of Criminal
Appeals rejected the petitioner’s other claims and
affirmed the conviction, and the Tennessee Supreme
Court denied discretionary review. Kendrick v. State,

10
E2011-02367-CCA-R3-PC, 2015 WL 6755004 (Tenn.
Crim. App. Nov. 5, 2015), perm. app. denied (Tenn.
May 5, 2016).
V.

Federal Habeas Corpus Review

The petitioner filed a petition for writ of habeas
corpus in the United States District Court for the
Eastern District of Tennessee, which denied relief on
all claims. Kendricks v. Phillips, No. 1:16-cv-00350,
2019 WL 4757813 (E.D. Tenn. Sep. 30, 2019). On the
expert witness issue, the district court concluded that
the state supreme court did not unreasonably apply
federal law when rejecting the claim of ineffective
assistance of counsel in declining to develop expert
opinion testimony on the rifle’s firing. Id. at *19-20. In
the district court’s view, while expert opinion testimony
comparable to Belk’s post-conviction hearing testimony
would have been useful, it was not unreasonable for the
Tennessee Supreme Court to conclude that counsel was
not ineffective for declining to hire an expert. Id. at
*20. “Because the case here did not rely solely on
expert testimony where the State presented much
additional evidence, including eyewitness testimony,
counsel was not ineffective for failing to hire an
expert.” Id.
Likewise, the district court found no unreasonable
application of federal law in the Tennessee Supreme
Court’s rejection of the claim of ineffective assistance of
counsel in failing to rely on the excited utterance
exception to the hearsay rule. Id. at *21-22. On the
petitioner’s assertion that Belk’s testimony constitutes
proof of actual innocence sufficient to excuse a
procedural default, the district court concluded that the

11
petitioner cannot make the requisite showing “that no
reasonable juror would have found him guilty beyond
a reasonable doubt if provided with Mr. Belk’s
testimony.” Id. at *17.
On appeal, the Sixth Circuit granted a certificate of
appealability on the two ineffectiveness claims rejected
by the Tennessee Supreme Court, and it affirmed the
district court’s denial of the habeas corpus petition. On
the expert witness issue, the court concluded that “a
fairminded jurist could agree with the Tennessee
Supreme Court that counsel’s pre-trial strategy for
rebutting the State’s firearms expert was reasonable.”
Kendrick, 989 F.3d at 472. But even if defense counsel
should have sought an expert, “a fairminded jurist
could agree that it was ‘entirely uncertain’ whether
counsel would have found one in 1994 with a
reasonable investigation.” Id. (quoting Kendrick, 454
S.W.3d at 476.)
On the excited-utterance issue, the Sixth Circuit
likewise concluded that a fairminded jurist could agree
with the state court’s determination that defense
counsel’s extensive efforts to inform the jury of Miller’s
own shooting did not qualify as deficient performance.
Id. at 470. Relatedly, the Sixth Circuit found no
deficient performance in counsel not personally
interviewing Miller pretrial and in counsel relying on
information provided by his investigator and on the
results of the defense’s pretrial investigation. Id. at
470-71. Because it resolved the claim on deficiency
grounds, the Sixth Circuit did not reach or consider
whether the Tennessee Supreme Court unreasonably

12
applied federal law when finding no prejudice. Id. at
471 n.2.
ARGUMENT
The petitioner challenges the Sixth Circuit’s
decision denying habeas corpus relief on his two
allegations of ineffective assistance of counsel. He
seeks review on three grounds: (1) defense counsel
could have found and procured a useful firearms
expert, despite the state court’s factual finding to the
contrary, (2) deficient performance should be
presumed, an issue not raised in the Sixth Circuit, and
(3) relief should be granted due to cumulative error by
defense counsel on both allegations, an issue not
squarely raised in federal court and separately rejected
in state court. He further asserts that he can overcome
the procedural default of other federal claims due to his
alleged actual innocence.
In effect, the petitioner asks this Court to engage in
error correction and grant relief, a request that the
Court should decline because there is no error to
correct. The lower federal courts rightly applied the
deferential review required by 28 U.S.C. § 2254(d)
when rejecting the petitioner’s ineffectiveness claims,
and the petitioner cannot prove actual innocence to
excuse procedural default of his other claims.

13
I. Further Review Is Unwarranted Because the
Sixth Circuit Rightly Determined That the
Tennessee Supreme Court Did Not
Unreasonably Apply Federal Law in Rejecting
the Petitioner’s Allegations of Ineffective
Assistance of Counsel.
A. The Tennessee Supreme Court did not
unreasonably apply federal law when
rejecting the ineffectiveness claims, as
persuasively explained by the Sixth
Circuit.
Under the Anti-Terrorism and Effective Death
Penalty Act of 1996 (“AEDPA”), a federal court may not
grant habeas corpus relief on a federal claim
adjudicated in state court unless, as relevant here, the
state-court decision involved an unreasonable
application of clearly established federal law. 28 U.S.C.
§ 2254(d)(1). An unreasonable application “identifies
the correct governing legal principle in existence at the
time” but “unreasonably applies that principle to the
facts of the prisoner’s case.” Cullen v. Pinholster, 563
U.S. 170, 182 (2011) (internal quotation marks and
citation omitted). The relevant question “is not whether
a federal court believes the state court’s determination
. . . was incorrect but whether that determination was
unreasonable—a substantially higher threshold.”
Knowles v. Mirzayance, 556 U.S. 111, 123 (2009)
(internal quotation marks omitted).
A state court’s application of federal law qualifies as
unreasonable only if it “was so lacking in justification
that there was an error well understood and
comprehended in existing law beyond any possibility

14
for fairminded disagreement.” Harrington v. Richter,
562 U.S. 86, 103 (2011). Thus, “so long as ‘fairminded
jurists could disagree’ on the correctness of the state
court’s decision,” habeas corpus relief is unavailable.
Id. at 101 (quoting Yarborough v. Alvarado, 541 U.S.
652, 664 (2004)).
Here, a fairminded jurist could agree with the
Tennessee Supreme Court’s resolution of the
petitioner’s claims of ineffective assistance of counsel
under Strickland v. Washington, 466 U.S. 668 (1984),
which requires that he prove both deficient
performance and prejudice. For deficient performance,
the petitioner must show that counsel’s representation
fell below an objective standard of reasonableness,
“outside the wide range of professionally competent
assistance,” to the extent that counsel was not
functioning as the “counsel” guaranteed by the Sixth
Amendment. Strickland, 466 U.S. at 687-688, 690. For
prejudice, “[t]he defendant must show that there is a
reasonable probability that, but for counsel’s
unprofessional errors, the result of the proceeding
would have been different.” Id. at 694.
When a federal court reviews a state-court
adjudication on an ineffectiveness claim, the court’s
analysis is “doubly deferential,” Mirzayance, 556 U.S.
at 123, asking “not whether counsel’s actions were
reasonable” but “whether there is any reasonable
argument that counsel satisfied Strickland’s
deferential standard,” Richter, 562 U.S. at 105. “A state
court must be granted a deference and latitude that are
not in operation when the case involves review under

15
the Strickland standard itself.” Richter, 562 U.S. at
101.
As both the district court and the Sixth Circuit
correctly decided, the petitioner simply cannot satisfy
this high standard under the facts and circumstances
of this case. On the expert-witness issue, the Tennessee
Supreme Court extensively reviewed this Court’s thenrecent decisions in Richter and Hinton v. Alabama, 571
U.S. 263 (2014), and found a number of barriers to
defense counsel’s ability to locate and present his own
expert. First, state law did not yet authorize the
provision of this kind of expert service to indigent
criminal defendants in 1994. Kendrick, 454 S.W.3d at
476. Second, the record did not establish that defense
counsel could have located and hired an expert who
could testify about potential defects in the trigger
mechanism of a Remington Model 7400 rifle,
comparable to the testimony provided by Belk during
the post-conviction proceedings. Id. Third, Belk himself
could not have provided pertinent expert opinion
testimony in 1994 because he had not yet become
involved with cases involving the Model 7400 rifle. Id.
Regardless, even if those challenges had not existed,
trial counsel was not deficient by pursuing his chosen
defense strategy and not seeking a firearms expert for
the defense. “[T]he undisputed fact that [Officer] Miller
was shot in the foot by the very same rifle” amounted
to “[t]he best evidence that Mr. Kendrick’s Model 7400
was capable of misfiring.” Id. at 477. Mindful of the
evidence available to him, defense counsel made a
reasonable calculation that Miller’s shooting would
“trump” anything that Fite could say. The case did not

16
“hinge[] on expert testimony,” and the “bulk of the
State’s case consisted of eyewitnesses.” Id. While it
would have been “best practices” for trial counsel to
consult a firearms expert before trial, electing not to do
so was not objectively unreasonable. Id.
As the Sixth Circuit rightly concluded, a fairminded
jurist could agree with the state court’s decision that
defense counsel’s reliance on Miller’s shooting to rebut
the State’s expert was reasonable. But even if further
expert investigation were required, a fairminded jurist
could agree that it was “entirely uncertain” that an
appropriate expert could have been found in 1994 by
reasonable investigation. Kendrick, 989 F.3d at 472-73
(quoting Kendrick, 454 S.W.3d at 476). The petitioner
“failed to present any evidence that counsel should
have known that Belk might have been an available
witness.” Id. at 473. “‘It was at least arguable that a
reasonable attorney could decide to forgo inquiry’ into
a firearms expert in these circumstances.” Id. at 473
(quoting Richter, 562 U.S. at 106).
On the excited-utterance issue, the Tennessee
Supreme Court first assumed without deciding that
Miller’s prior statements to Gann and Holbrook
qualified as excited utterances under state law. But it
did not necessarily follow “that Mr. Kendrick’s trial
counsel was ineffective because he did not seek to
admit them under Tenn. R. Evid. 803(2).” Id. at 480.
Defense counsel “labored to convince the jury” that
Miller’s finger “was not on the trigger of the rifle when
it fired into his foot.” Id. Counsel “closely” crossexamined Miller about the incident and the officer’s
memory loss, and he attempted to refresh the officer’s

17
recollection with the incident reports. “In short, trial
counsel did almost everything at his disposal to prove
that [Officer] Miller had not pulled the trigger, with the
exception that he did not offer the statements as
substantive evidence under Tenn. R. Evid. 803(2).” Id.
at 481. And the fact that counsel “failed to go one step
further by pursuing the excited utterance exception”
does not overcome the presumption under Strickland
that counsel provided adequate representation. Id.
The Sixth Circuit rightly found that a fairminded
jurist could reach the same decision. Defense counsel
“put on a thorough and ‘skilled cross-examination’
challenging the credibility of Miller’s unexpected lack
of memory.” Kendrick, 989 F.3d at 469. His effort to
secure admission of the statements as prior
inconsistent statements “provides at least a ‘reasonable
argument that counsel satisfied Strickland’s
deferential standard.’” Id. at 470 (quoting Richter, 562
U.S. at 105). And his pretrial reliance on information
otherwise provided to him about Miller’s prior
statements and expected testimony was reasonable,
such that counsel’s election not to speak with Miller
personally is an insufficient basis to overcome AEDPA
deference. Id. at 471.
B. The Tennessee Supreme Court did not
unreasonably determine the facts when it
concluded that an expert useful to the
defense was not available at the time of the
petitioner’s trial.
The petitioner claims that the lower courts
erroneously “required proof a particular expert was
available at trial” in 1994. In his view, “[t]here is no

18
reason to think some expert would not have been
available, especially because working with gunsmiths
like Belk has a long history in Tennessee litigation.”
Thus, he surmises that “the record shows experts
would have been available.” (Pet., 25-27.)
To this, the Sixth Circuit rightly explained that the
availability of an expert particularly useful to the
defense in showing a defect in the petitioner’s
Remington 7400 rifle was an issue of fact that the
Tennessee Supreme Court found “entirely uncertain.”
Kendrick, 989 F.3d at 475. In the post-conviction
proceedings, the only proof presented on this point was
Belk’s testimony that he had testified in 1994 about a
different Remington model and that he did not handle
a Remington 7400 case until the late 1990s. In its
review of the record, the Tennessee Supreme Court
found no indication of “the existence [in 1994] of any
other such experts who were available.” Kendrick, 454
S.W.3d at 476. Defense counsel, who “considered
himself knowledgeable about firearms,” stated that he
was “unaware of any discussion in the industry
concerning defective Remington trigger mechanisms.”
Id.
Under 28 U.S.C. 2254(d)(2), habeas corpus relief
may be available when the state-court adjudication
“resulted in a decision that was based on an
unreasonable determination of the facts in light of the
evidence presented in the State court proceeding.” A
state court’s factual determination is not unreasonable
“merely because the federal habeas court would have
reached a different conclusion in the first instance.”
Burt v. Titlow, 571 U.S. 12, 18 (2013) (internal

19
quotation marks and citation omitted). The reviewing
federal court must accord the state court “substantial
deference.” Brumfield v. Cain. 576 U.S. 305, 314
(2015). The record must “compel the conclusion” that
the state court had “no permissible alternative but to”
make a contrary factual finding. Rice v. Collins, 546
U.S. 333, 341 (2006).
From the state-court record developed on this issue,
the petitioner cannot show that the Tennessee
Supreme Court unreasonably determined the
unavailability of a viable expert witness on alleged
design defects in the Remington Model 7400 rifle and
other firearms using the common trigger mechanism.
That is the type of expert that the petitioner has
consistently alleged defense counsel should have
presented. And under the state-court factual findings
made here, the Tennessee Supreme Court did not
unreasonably apply Strickland when rejecting the
petitioner’s challenge to counsel’s conduct in this
regard. Further review is not warranted on the factual
issue now proffered.1
C. The petitioner’s new assertion of
presumed, per se deficient performance
does not merit consideration.
Relying on Kimmelman v. Morrison, 477 U.S. 365
(1986), and Hinton, the petitioner argues for the first

1 In its review, the Sixth Circuit considered this factual issue
under 28 U.S.C. § 2254(e)(1) and aptly concluded that the
petitioner could not overcome, by clear and convincing evidence,
the presumption of correction that attaches to state-court factual
findings. Kendrick, 989 F.3d at 475.

20
time that deficient performance must be presumed and
recognized on the excited-utterance issue due to
defense counsel’s mistake of law. Petitioner’s
contention is that although defense counsel vigorously
attempted to inform the jury that Miller’s hand was not
near the trigger when it discharged on him—including
counsel’s unsuccessful efforts to admit extrinsic
evidence of Miller’s prior inconsistent statements under
a different evidentiary rule—defense counsel’s omission
of an additional request to admit this extrinsic evidence
as excited utterances was per se deficient performance.
Under this view, all that matters is that counsel made
a mistake of law.
But as the petitioner notes elsewhere in his petition,
the Court traditionally declines to grant certiorari
when “the question presented was not pressed or
passed upon below.” United States v. Williams, 504
U.S. 36, 41 (1992). Before the Sixth Circuit, the
petitioner did not advance an argument of per se
deficient performance on the excited utterance issue
due to a mistake of law, and the court did not consider
this argument. The petitioner’s belated invocation is
reason enough to deny review of it now.
Furthermore, neither Kimmelman nor Hinton
supports the position that the petitioner now advances.
In each of those cases, the Court considered under
Strickland whether trial counsel provided ineffective
assistance of counsel, under the particular facts and
circumstances of each respective case. In Kimmelman,
the Court actually rejected the petitioner’s assertion
that the failure to file a timely suppression motion was
per se deficient performance. 477 U.S. at 385. Instead,

21
applying Strickland, the Court determined that counsel
performed deficiently in his investigation. Id. There,
counsel’s weak explanations for his poor conduct,
including apparently his erroneous belief that he had
no obligation to request discovery, may have
“betray[ed] a startling ignorance of the law—or a weak
attempt to shift blame for inadequate preparation.” Id.
But the Court did not grant relief due to per se
deficiency predicated solely on a mistake of law. Id.
In Hinton, the Court found deficient performance in
counsel’s failure to secure a different expert witness
specifically because of counsel’s mistaken belief that a
monetary cap applied to an appointed expert. 571 U.S.
at 274-75. As in Kimmelman, the Court applied
Strickland and considered, under a totality of the
circumstances, whether counsel performed deficiently.
Id.
In neither case did the Court apply a per se
deficient performance test due to a mistake of law akin
to what the petitioner advances in this case. To be sure,
a mistake of law in a given case might qualify as
deficient performance, but that is not the case here. For
the reasons already stated, a fairminded jurist could
agree with the Tennessee Supreme Court’s decision
that defense counsel’s failure to lodge a second, excitedutterance evidentiary request was not a mistake of law
qualifying as deficient performance. And the petitioner
offers no decision by this Court that “clearly
established” by the time of the Tennessee Supreme
Court’s decision a per se deficient performance test for
a mistake of law, disavowing consideration of any other
facts and circumstances. See Greene v. Fisher, 565 U.S.

22
34, 38-40 (2011) (concluding that “clearly established”
federal law implicated by AEDPA deference is law in
effect at time of state-court adjudication). Certainly,
Kimmelman and Hinton do not so hold.
D. The petitioner can show no unreasonable
application of Strickland in the state-court
rejection of his claim of cumulative
ineffectiveness.
The petitioner claims that review is warranted due
to the cumulative effect of defense counsel’s deficient
performance. He appears to challenge the Tennessee
Supreme Court’s and the Sixth Circuit’s failure to
aggregate counsel’s conduct relevant to both issues
before those courts and find cumulative deficiency
therefrom.
The petitioner did not assert a cumulative-effect
claim in his habeas corpus petition. That is reason
enough to decline review at this juncture. Furthermore,
the petitioner’s cumulative-effect claim was separately
rejected by the Tennessee Court of Criminal Appeals on
post-conviction review, upon remand from the
Tennessee Supreme Court, on the basis that the
petitioner had not proven multiple instances of
deficient performance. Kendrick, 2015 WL 6755004, at
*38. Even if consideration of that state-court
adjudication were now available, the petitioner cannot
overcome the deferential review required by 28 U.S.C.
§ 2254(d), in view of his failure to establish multiple
instances of deficient performance. As already shown,
he failed to prove deficient performance under AEDPA
deference on both issues considered and rejected by the
Sixth Circuit below.

23
II. The petitioner cannot overcome procedural
default of his other claims due to his alleged
actual innocence.
Relying on Belk’s post-conviction hearing testimony,
the petitioner argues that the procedural default of his
other federal claims should be excused under the
fundamental-miscarriage-of-justice exception due to his
alleged actual innocence. The lower courts
appropriately declined to excuse procedural default on
this basis, and further review is not warranted.
The fundamental-miscarriage-of-justice exception to
the procedural-default doctrine is a narrow exception
reserved for the extraordinary case in which the
alleged constitutional error probably resulted in the
conviction of one who is actually innocent of the
underlying offense. Dretke v. Haley, 541 U.S. 386, 388
(2004); Murray v. Carrier, 477 U.S. 478, 496 (1986). A
claim of actual innocence “requires [the] petitioner to
support his allegations of constitutional error with new
reliable evidence—whether it be exculpatory scientific
evidence, trustworthy eyewitness accounts, or critical
physical evidence—that was not presented at trial.”
Schlup v. Delo, 513 U.S. 298, 324 (1995). Actual
innocence in this context “means factual innocence, not
mere legal insufficiency.” Bousley v. United States, 523
U.S. 614, 623 (1998).
This “requires the habeas petitioner to show that ‘a
constitutional violation has probably resulted in the
conviction of one who is actually innocent.’” Schlup, 513
U.S. at 327 (quoting Carrier, 477 U.S. at 496). “To
establish the requisite probability, the petitioner must
show that it is more likely than not that no reasonable

24
juror would have convicted him in the light of the new
evidence.” Id. A petitioner does not meet the threshold
requirement unless he persuades the court “that, in
light of the new evidence, no juror, acting reasonably,
would have voted to find him guilty beyond a
reasonable doubt.” Id. at 329. This standard “is
demanding and permits review only in the
‘extraordinary’ case.” House v. Bell, 547 U.S. 518, 538
(2006) (quoting Schlup, 513 U.S. at 327).
The petitioner challenges the district court’s citation
to the clear-and-convincing-evidence standard in
Sawyer v. Whitley, 505 U.S. 333, 339 (1992), but a
review of the district court’s full analysis shows that it
appropriately applied the Schlup standard to reject his
assertion of actual innocence. Kendricks, 2019 WL
4757813, at *17. And despite the petitioner’s indication
to the contrary, the district court considered and
reviewed all of the evidence—”old and new”—from the
trial and the post-conviction hearing when finding that
the petitioner could not meet this standard. Regardless,
even if Belk’s testimony were accredited, the petitioner
cannot show that his is an “extraordinary” case
meriting further consideration due to actual innocence.
As the trial court aptly noted when it found no
Strickland prejudice on the expert witness issue,
Even if one disregards Mr. Fite’s trial testimony
suggesting that accidental discharge was
impossible and accepts Mr. Belk’s testimony
indicating that, because of the trigger
mechanism in the gun, accidental discharge was
possible, significant weaknesses in the theory of
the defense, specifically, unfavorable eyewitness

25
evidence and the petitioner’s own ambiguous
action in leaving the scene and discarding the
gun, still remain.
(Pet. 308a-309a.)
Endia Kendrick testified that her father shot her
mother while her mother was standing with her hands
up, demonstrating at trial how the two were standing.
Kendrick, 989 F.3d at 463. This matched the forensic
evidence of stippling on the victim’s forearms but not
on her hands, upper arms, or chest. Id.; (R.E. 14-5,
PageID# 815, 818-19.) At the airport, Endia said that
she told the petitioner not to shoot the victim, but he
did and the victim fell. Kendrick, 989 F.3d at 463. The
petitioner fled and discarded the rifle. Id. at 464. He
later acknowledged shooting the victim and did not
report an accidental discharge. Id.
Immediately after the shooting, Lennell Shepheard
and Charles Mowrer saw the petitioner looking over
the victim’s body, and Shepheard heard the petitioner
repeatedly say, “I told you so.” Id. at 462. Timothy
Benton saw the petitioner pointing the rifle straight up
in the air—consistent with the natural upward recoil of
a fired weapon—with the petitioner’s right hand on the
pistol grip area around the trigger and left hand near
the stock. Id.
When the trial evidence of the petitioner’s guilt is
placed alongside Belk’s testimony on which the
petitioner now relies to show actual
innocence—including Belk’s admissions that he never
before produced a discharge from debris in an
operational Remington 7400 rifle and that he could not

26
opine that this rifle misfired, id. at 465; (R.E. 14-30,
PageID# 3147, 3158-60)—and in view of Fite’s
testimony that he could not manipulate a misfire in the
petitioner’s rifle despite his best efforts to do so,
Kendrick, 989 F.3d at 463-64, the petitioner cannot
show that it is more likely than not that no reasonable
juror would have convicted him, had Belk’s postconviction hearing testimony been considered. As the
district court recognized, “Mr. Belk’s testimony that the
common fire mechanism was defective in design did not
definitively establish that Petitioner’s gun discharged
without a trigger pull; he merely suggested it was
possible.” Kendricks, 2019 WL 4757813, at *17.
Relatedly, the trial court rejected the petitioner’s statelaw actual-innocence claim on post-conviction review
precisely because “evidence that accidental discharge
is possible is not equivalent to evidence that a
particular discharge was accidental.” (Pet. 325a.)
Under the full record, Belk’s testimony fails to meet the
Schlup standard for actual innocence.

27
CONCLUSION
For the reasons stated, the petition for a writ of
certiorari should be denied.
Respectfully submitted,
HERBERT H. SLATERY III
Attorney General and Reporter
State of Tennessee
ANDRÉE SOPHIA BLUMSTEIN
Solicitor General
JOHN H. BLEDSOE
Counsel of Record
Deputy Attorney General
Federal Habeas Corpus Division
500 Dr. Martin L. King Jr. Blvd.
P.O. Box 20207
Nashville, Tennessee 37202-0207
John.Bledsoe@ag.tn.gov
(615) 741-4351
Counsel for Respondent

